OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/TAJIKISTAN’S
PRODUCTIVE AGRICULTURE
PROGRAM


AUDIT REPORT NO. 5-119-12-001-P
OCTOBER 28, 2011




MANILA, PHILIPPINES
Office of Inspector General


October 28, 2011

MEMORANDUM

TO:                  USAID/Central Asian Republics Regional Mission Director, Erin E. McKee

FROM:                Regional Inspector General/Manila, Bruce N. Boyer /s/

SUBJECT:             Audit of USAID/Tajikistan’s Productive Agriculture Program
                     (Report Number 5-119-12-001-P)

This memorandum transmits our final report on the subject audit. In finalizing the audit report,
we considered your comments on the draft report and have included those comments in
Appendix II of this report.

This report contains eight recommendations to assist the mission in improving certain aspects of
the program. On the basis of the information provided by the mission in its response to the draft
report, we determined that management decisions have been reached on all eight
recommendations. Please provide the Audit Performance and Compliance Division of USAID’s
Office of the Chief Financial Officer with evidence of final action to close these
recommendations.

I would like to thank you and your staff for the cooperation and courtesies extended to us during
this audit.




U.S. Agency for International Development
PNB Financial Center, 8th Floor
Roxas Blvd. 1308 Pasay City
Metro Manila, Philippines
www.usaid.gov/oig
CONTENTS
Summary of Results ..................................................................................................... 1

Audit Findings ............................................................................................................... 5

     Program Lacked Sufficient Monitoring Tools ............................................................. 5

     Communication, Eligibility, and Timing Snags Reduced Voucher Activity
     Effectiveness ............................................................................................................. 7

     Bottlenecks Inhibited Increases in Credit Access and Agribusiness Investment ........ 9

Evaluation of Management Comments...................................................................... 13

Appendix I – Scope and Methodology ....................................................................... 15

Appendix II – Management Comments ...................................................................... 17




   Abbreviations

   The following abbreviations appear in this report:

   ADS                Automated Directives System
   PMP                performance management plan
SUMMARY OF RESULTS
According to the U.N. Food and Agriculture Organization, ―more than two-thirds of Tajikistan’s
population depends on agriculture for its livelihood and . . . to meet nutrition requirements at
household level.‖1 The purpose of USAID/Tajikistan’s Productive Agriculture Program is to
provide training, equipment, and commodities to assist in the development of the agriculture
sector in Tajikistan by increasing the productivity of traditional agricultural crops and expanding
agricultural profitability. The traditional crops targeted by this program are onion, tomato,
watermelon, lemon, apricot, and beef, and the regions identified for intervention are western
Khatlon (directly south of the capital bordering Afghanistan), Sughd (north of the capital), and
the district surrounding the country’s capital, Dushanbe (see map below).




Source: CIA World Factbook

To implement the program, USAID/Central Asian Republics awarded a $9.8 million cost-plus-
fixed-fee completion contract to ACDI/VOCA, covering the 5-year period from September 30,
2009, through September 29, 2014. As of June 30, 2011, the mission had obligated $3.2 million
and disbursed $2.5 million under the program.

Farmers in Tajikistan tend to purchase their agricultural inputs from local dealers that sell a
variety of locally available, generally uncertified, seed. Farmers also commonly use nitrogen-
based fertilizer, which spurs rapid growth but ultimately does not yield as much because the
plants expend more energy on growing than on producing more fruit. Farmers typically refrain
from using pesticides, applying chemicals only after a problem has occurred rather than taking
preventive measures.

1
 ―FAO’s Role in the 2008/2009 Humanitarian Food Security Appeal for Tajikistan,‖ September 25, 2008,
www.fao.org/fileadmin/templates/tc/tce/pdf/tajikistan_appeal_2008_2009.pdf, accessed on September 8,
2011.


                                                                                                  1
Therefore, USAID’s program focuses on a voucher (or coupon) distribution activity. Through it,
farmers can buy certified seed, complex fertilizer, pesticides, and other products at discounted
rates ranging from 25 to 50 percent, rates that are subsidized by the program. To ensure that
these farmers are able to maximize the effectiveness of the high-quality products, the program
also offers training on improved cultivation techniques, the application of fertilizers and
pesticides, and post-harvest handling techniques.          Demonstration plots are also used
throughout the program’s focus areas to illustrate the benefit of spending more money up front
to achieve much greater crop yields and profitability, instead of buying the cheapest inputs
available and seeing diminished results.

In addition, the program strives to increase access to credit for farmers and agribusinesses
(such as input dealers, processors and exporters) and to increase agribusiness investment. To
accomplish both objectives, the program offers program participants financial packages that
combine grants, matching funds, and loans at favorable interest rates.

Finally, the program works to develop the market chain within the agriculture sector—
strengthening relationships between input dealers and farmers on one end, as well as
relationships between farmers and processors and exporters on the other.

The objective of the audit was to determine whether the program was achieving its main goals
of increasing the productivity of traditional agricultural crops and expanding the agricultural
profitability of farmers.

The program has made some progress toward increasing the productivity and profitability of
traditional crops. The inputs provided through the voucher activity have been well received, and
participating farmers interviewed during the audit voiced appreciation for the training provided in
association with those inputs. The program has also helped strengthen market linkages
between farmers and the input dealers from which they purchase their inputs, as well as
between farmers and the businesses to which they sell their produce.

For instance, apricot farmers using drying trays provided through the program’s apricot voucher
activity saw an improvement in the quality of their product. These farmers told the audit team
that they were able to sell their tray-dried apricots for almost double the price of their ground-
dried product—essentially doubling their income on apricots dried in this way—because tray-
dried product does not require significant investment to clean, and the coloring of the apricots is
much more attractive. The 20 trays provided to each farmer participating in the voucher activity
were enough to handle only a few trees because they were meant to demonstrate an
opportunity for increased profits. Several farmers said they intended to purchase many more
trays (hundreds of them) to use for the rest of their trees.

Another farmer showed auditors his tomato demonstration plot (like the one pictured on the next
page) in which he applied the planting and cultivation techniques he learned in training and
used high-quality seed, complex fertilizer, and pesticides all provided through the program’s
voucher activity. With these improved products and techniques, he expected his yield to be as
much as five times that of his neighboring plot of traditionally planted tomatoes. Because of his
successful demonstration plot, this farmer said he plans to expand his tomato plot from a third of
a hectare to 10 hectares in the upcoming season. The program has also helped put him in
touch with a tomato processor, who promised to bring trucks to buy the tomatoes in bulk if the
farmer grew them as planned.


                                                                                                 2
A farmer tends a program-sponsored demonstration plot showing the effects that different
fertilizers have on tomato plants grown with certified seed. (Photo by Office of Inspector General,
July 2011)

An input dealer in northern Tajikistan stated that because of the program’s onion demonstration
plot and training provided to farmers, demand for imported seeds and pesticides had increased
significantly. Whereas in the past the store had difficulty selling even 3 to 5 kilograms of high-
quality, imported seeds per season, the dealer currently reported selling around 80 percent of
the store’s seed stock and planned to order as much as five times more for the next season.

Despite these successes, however, the audit identified some substantial problem areas that
could materially affect the program’s ability to achieve its high-level goals:

   The program lacked sufficient monitoring tools (page 5).

   Communication, eligibility, and timing snags reduced voucher activity effectiveness
   (page 7).

   Bottlenecks inhibited the program’s ability to increase access to credit and increase
   agribusiness investment (page 9).

The report recommends that USAID/Central Asian Republics:

1. Establish additional output indicators to adequately report on the achievement of the
   voucher activity, such as the number of participants receiving vouchers and the number of
   vouchers redeemed (page 6).

                                                                                                 3
2. Adopt end-of-program targets, as well as milestone targets, for all output indicators as
   required by Automated Directives System (ADS) 203.3.3.1.b (page 6).

3. Adopt procedures to ensure reported achievements are adequately supported with reliable
   data and reflect the intended measurement of the indicator (page 7).

4. Modify the voucher activity as necessary to communicate the purpose of the voucher activity
   more effectively (page 8).

5. Clarify farmer eligibility requirements with its contractor. The contractor should then
   communicate in writing the requirements to personnel implementing and monitoring the
   voucher activity so that they select only eligible individuals to participate (page 8).

6. Identify the key dates by which farmers need voucher inputs for various crops and
   implement a schedule for delivering inputs well in advance of those dates, giving farmers
   sufficient time to save or identify financing for purchasing these inputs (page 9).

7. Expedite the program’s approval process for grant applications (page 12).

8. Implement a plan to facilitate purchases of agricultural equipment through more frequent
   purchase requests to the contracting officer and expedited approval (page 12).

Detailed findings follow. Our evaluation of management comments is on page 13. The audit
scope and methodology are described in Appendix I, and the full text of management comments
appears in Appendix II.




                                                                                            4
AUDIT FINDINGS
Program Lacked Sufficient
Monitoring Tools
The audit disclosed critical gaps in the program’s performance management plan (PMP).
Achievements—particularly relating to the voucher activity—were not captured, targets had not
been established for any of the output indicators, and insufficient controls in reporting results for
training activities led to a key reported accomplishment being largely unreliable. We discuss
these issues below.

Indicators and Targets. Output indicators capture tangible, immediate, and intended results of
an activity within USAID’s control. These indicators are important during the early stages of a
program because they can provide an early warning that results may not be achieved as
planned. Properly identifying output indicators and monitoring results are critical to a program’s
success. In addition, ADS 203.3.3.1.b requires that target values be included for each indicator
to hold the program accountable for expected achievements.

Despite the need to track the achievements of key program activities, the program did not
formally track or report on the program’s most significant activity—the voucher activity. The
program had no indicator to measure the number of voucher recipients or the number of
recipients who redeemed their vouchers for the high-quality inputs subsidized by the program.
The output indicator most closely related to the program’s voucher activity is the Number of
people trained, which apparently is intended to report the number of voucher recipients trained.

Auditors attempted to obtain some of the missing data. In reviewing a judgmentally selected
sample of program documents, auditors found that farmers had redeemed only 76 percent of
vouchers, which were distributed to selected groups of individuals who had signed agreements
to participate in the voucher activity. Farmers interviewed during the audit confirmed that many
had not redeemed their vouchers. Program staff did not distinguish the pervasiveness of the
low rate of voucher redemption as a problem that warranted corrective action.

Analyzing the existing indicator, auditors found it an ineffective proxy for the number of
participants trained. Because people who do not participate in the voucher activity attend the
seminars and sign training attendance sheets, the number of voucher recipients who receive
training cannot be ascertained from this indicator. Moreover, no targets exist for the number of
people trained.

The exclusion of relevant output indicators occurred because contractor and mission officials
focused on higher-level, impact measurements—those that pertain to primary program
objectives including farmer income and farm yield. According to these officials, only impact
indicators, which are specified in the contract, have to be measured. Nevertheless, by not
including critical, relevant output indicators, such as the number of people who receive vouchers
and the number of people who redeem their vouchers, the mission loses a valuable tool in
determining whether intended beneficiaries are actually receiving the assistance intended by the
program.



                                                                                                   5
By not establishing targets for the Number of people trained indicator or for the voucher
distribution and redemption activities, the mission cannot hold the program accountable for
expected results. Ultimately, by not adequately tracking and reporting on outputs, the mission
cannot identify weaknesses in implementation that could prevent the program from achieving its
intended results. We therefore make the following recommendations.

   Recommendation 1. We recommend that USAID/Central Asian Republics establish
   additional output indicators to measure achievements under the voucher activity,
   including the number of voucher recipients and the number of vouchers redeemed.

   Recommendation 2. We recommend that USAID/Central Asian Republics adopt and
   document end-of-program targets, as well as milestone targets, for all output indicators
   as required by Automated Directives System 203.3.3.1.b.

Reliable Results. According to ADS 203.3.5.1, ―Data Quality Standards,‖ reported data must
(1) clearly and adequately (validly) represent the intended result, (2) be sufficiently precise to
present a fair picture of performance, and (3) be controlled to reduce the possibility that it might
be wrongfully manipulated (integrity). These standards help ensure that the mission is aware of
the strengths and weaknesses of the data being provided.

Because the Productive Agriculture Program is relatively new—less than 2 years into its 5-year
term—minimal impact data exists to measure programmatic success. Therefore, the audit
focused on outputs in an effort to determine how successful the program has been at providing
a foundation for accomplishing its high-level impact objectives. Accordingly, the best available
reported data came from the Number of people trained indicator, which the audit team
attempted to validate.

Ultimately, the reported figure proved unreliable as the audit found that at least 35.7 percent of
the total number of people trained could not be supported. This was because of three control
weaknesses: (1) data was not present in the contractor’s database to support the achievement
reported to USAID; (2) the database itself contained multiple and duplicative entries, which
inflated the program’s reported figure; and (3) evidence to substantiate participant attendance of
the training events recorded in the contractor’s database was inadequate.

While only 75 percent of those reportedly trained could be accounted for in the contractor’s
database of registered individuals trained, many of these individuals were counted multiple
times during the same year (counted each time they attended a training within a fiscal year)
instead of only once because the contractor apparently misinterpreted how these results should
be reported. This misinterpretation caused the indicator to represent the number of training
courses provided instead of the number of people trained. Deficiencies in controls relating to
data entry also resulted in duplicative entries (the exact same information recorded more than
once for the same event) as well as in the recording as training beneficiaries individuals who
should not have been included in the first place, such as USAID personnel who sat in on the
training.

In addition to database integrity issues, document validation efforts revealed inadequate
evidence to support participant attendance at 5 out of 17 judgmentally selected training events
reviewed by the audit. Moreover, one of the training events selected—the sample constituted
roughly 22 percent of all the training events sponsored by the program—was not present in the
database. Given the number of missing and duplicate records in the contractor’s database, and


                                                                                                  6
the number of unsupported or undocumented training attendees, the program could not support
more than 64 percent of the total reported for the number of people trained.

In summary, the audit disclosed weaknesses in the control process for ensuring that events are
adequately documented and supported and for entering information into the program’s
database. Likewise, procedures to verify all program achievements reported to USAID were
deficient. Because of these inadequate controls in reporting, the reported figure for the number
of people trained is unreliable. As a result, the program will have difficulty measuring the
effectiveness of its activities and making midcourse corrections that might be needed to achieve
intended results. We therefore make the following recommendation.

   Recommendation 3. We recommend that USAID/Central Asian Republics implement
   control procedures to require that (1) the contractor supports reported achievements with
   reliable documentation, (2) the contractor enters information accurately into the
   program’s database, and (3) reported results accurately reflect the intended
   measurement of the indicators (people trained, not training courses provided).

Communication, Eligibility, and
Timing Snags Reduced Voucher
Activity Effectiveness
The voucher activity has increased awareness of high-quality agricultural inputs and
successfully demonstrated new techniques to improve the quality of products for export. The
intent of the voucher activity, however, was not always clear to participants, leading some
participating farmers to conclude that the investment in high-quality inputs was not worthwhile.
In addition, we found that a number of the voucher recipients did not meet eligibility criteria.
Further, the late delivery of vouchers has delayed the planting of crops and prevented some
individuals from participating. These issues are discussed in detail below.

Communication. The intention of the voucher activity is to demonstrate to farmers that
investing in more-expensive, higher-quality inputs can increase farm income. Not all voucher
recipients interviewed understood the intent of the voucher activity. While some interpreted the
voucher’s goal correctly, about a third of those interviewed saw the voucher as a way to save
money. Members of this group expressed appreciation for the discounted products, but said
they plan to return to their regular inputs when the discounts end. Others expressed
dissatisfaction with complex fertilizers, believing the slower growth achieved with them (as
compared with nitrate-based fertilizers) made them inferior. As a result, one farmer applied
nitrogen fertilizer on top of the complex product to address what he saw as a shortfall, nullifying
whatever effect the voucher activity might have achieved.

A subcontractor responsible for implementing and monitoring voucher activity in one of the
districts receiving program assistance felt that communication with farmers was weak and
suggested that clarifying the voucher’s intent would improve participants’ understanding and
encourage farmers to embrace the new inputs.

Misunderstandings limit the impact and sustainability of the program’s voucher efforts and may
induce other farmers not to purchase higher-quality inputs. Ultimately, this could reduce
demand for products from input dealers, who would not find it worthwhile to continue stocking
such products. We therefore make the following recommendation.


                                                                                                 7
   Recommendation 4. We recommend that USAID/Central Asian Republics modify the
   voucher activity as necessary to communicate the purpose of the voucher activity more
   effectively.

Eligibility. To be eligible to participate in activities sponsored by the Productive Agriculture
Program, farmers should have at least 10 hectares of land. In addition, farmers must have at
least 1 hectare of land to devote to the specific voucher-sponsored product. These
requirements, though not written down as a policy, were communicated to us by members of the
program management team—including the contractor’s chief of party—as well as by one of the
subcontractors implementing the voucher activity, indicating widespread knowledge of these
informal requirements. The requirements are to ensure that program participants are engaged
in commercial activities—selling their produce—rather than merely growing their crops for
subsistence.

Notwithstanding the requirements, 20 of 37 farmers interviewed during the audit managed fewer
than 10 hectares—on average only 2.59 hectares. Further, 4 of the same 37 farmers did not
possess the minimum 1 hectare of land to devote to the voucher inputs (or 60 trees in the case
of lemon farmers).

Although one of the local nongovernmental organizations subcontracted to implement and
monitor the voucher activity was aware of the 10-hectare minimum, others were not. These
other organizations included as eligible any farmer with at least 1 hectare of land. They did not
appear to understand the program’s intent to target commercially viable farmers.

Farmers with small land holdings do not necessarily have the resources to purchase more-
expensive, higher-quality inputs. In fact, several farmers interviewed during the audit said
financing was a big challenge—sometimes prohibitive. One of those interviewed noted that
even the subsidy from the vouchers just covered the interest costs on loans from the bank.
Moreover, those who farm less than 10 hectares cannot implement practices on a larger scale,
not only because of their small plot size, but also because they devote a portion of their land to
growing other crops, to mitigate risk.

Not targeting commercially viable farmers through the program’s voucher activity reduces the
likelihood that participants will continue to use high-quality inputs after experiencing the
increased yield and profitability from these products. Farmers with small land holdings may not
have the financial resources to purchase the products on their own. We therefore make the
following recommendation.

   Recommendation 5. We recommend that USAID/Central Asian Republics clarify the
   Productive Agriculture Program’s farmer eligibility requirements with its contractor. The
   contractor should then communicate in writing the requirements to personnel
   implementing and monitoring the voucher activity so that they select only eligible
   individuals to participate.

Timing. Best practice calls for providing inputs such as seed, fertilizer, and pesticide to farmers
on schedule so that they can use them efficiently and effectively. With the voucher activity,
farmers need lead time to save enough money to buy the voucher-sponsored products or
secure attractive financing.




                                                                                                 8
Yet the program has delivered vouchers (and by default the inputs purchased with them) later
than some farmers needed them. In 2010 for instance, onion voucher recipients received their
voucher inputs in late September although the optimum time for planting was August.
Watermelon voucher recipients in the south of the country received their watermelon seed,
fertilizer, and pesticides in late April of 2011, but said they would have preferred the inputs in
early to mid-March. Further, apricot growers who received their vouchers in June 2011 were
told to purchase the sponsored products within 2 weeks, before the vouchers expired, causing
distress among individuals who lacked the financial capacity to respond so quickly.

Voucher delays occurred because of supply problems and because program officials took the
time to build local dealers’ procurement capacity. Sourcing supplies grew more complicated
over the past year, when relations between Uzbekistan (the source of much of the inputs) and
Tajikistan soured (Tajikistan is constructing a hydroelectric dam that will affect the amount of
water flowing in Uzbekistan). Uzbekistan closed the majority of its borders with Tajikistan,
severely limiting the ability of dealers to obtain certified seeds, complex fertilizers, and
pesticides. Another cause of delay was the extra effort the program put into ensuring
sustainability: the program helped local input dealers connect with suppliers to purchase what
the dealers could afford and obtain financing as needed. The program apparently waited until
products arrived at the dealers’ shops before distributing the vouchers to program participants.

Because of the delayed voucher distribution, voucher recipients either planted late or did not
use the entire voucher—instead using their own, lower-quality inputs. Those planting later in
the season harvest later, meaning they must compete with a greater quantity of produce in the
marketplace and sell at a lower price. One farmer mentioned that because he planted late, his
crop had to compete for water with his government-mandated cotton crop. Those farmers using
their own seed or fertilizer inputs forgo the voucher activity’s intended benefits.

Furthermore, because the vouchers were distributed so close to their expiration date (printed on
the vouchers), some farmers were unable to gather enough resources to purchase the products.
Consequently, farmers redeemed only 76 percent of the vouchers sampled during our audit to
buy the products sponsored by the program.

Providing vouchers to program participants in time for them to save for and purchase the offered
products is crucial. Inputs must arrive when program participants need to use them. We
therefore make the following recommendation.

   Recommendation 6. We recommend that USAID/Central Asian Republics identify the
   key dates by which farmers need voucher inputs for various crops and implement a
   schedule for delivering inputs well in advance of those dates, giving farmers sufficient
   time to save or identify financing for purchasing these inputs.

Bottlenecks Inhibited
Increases in Credit Access
and Agribusiness Investment
Unlike the voucher activity, the credit and investment activity has indicators with targets—
aggressive ones: increasing by $11.6 million local financial institutions’ loans to farmers and
increasing by $2.2 million capital expenditures by agribusinesses (increased investment) by the
end of the program.


                                                                                                9
To accomplish both objectives, the program has offered financial packages to program
participants. The typical financial package includes a grant worth approximately 25 percent of a
targeted capital expenditure, such as a tractor, which is accompanied by the beneficiary’s own
contribution equal to 30 percent of the capital expenditure. Combined, this 55 percent forms a
down payment for an equipment purchase, for which a local financial institution then provides a
loan. The institution does so through a memorandum of understanding with the program to
provide these loans at more attractive rates than have historically been available.

This financial package satisfies both objectives of the program because they are closely related.
The access to credit and the agribusiness investment indicators report on different aspects of
the same financial package activity: loans provided to farmers and agribusinesses (access to
credit) and investments by agribusinesses. According to the program’s PMP, the results of this
activity are to be reported quarterly—both the volume of loans made to farmers and
agribusinesses (access to credit) and the amount of funding invested in those same
agribusinesses (agribusiness investment).

Access to Credit. Despite the program’s $11.6 million end-of-program target for increasing
access to credit, the March 31, 2011, quarterly performance report—the latest available report
at the time of the audit—acknowledged only $65,712 in loans provided by financial institutions.2
According to additional records maintained by the contractor, this figure had increased to
approximately $95,372 as of July 2011. With 2 months left until the end of the second year of
implementation, the program was well shy of its cumulative target of approximately $2.5 million
for September 30, 2011.

The $65,712 in increased access to credit was for eight tractor loans provided during the
program’s latest reporting period. The additional $29,660 in program-facilitated loans—bringing
the total to $95,372 through July 2011—covered three financial packages provided to
agribusinesses to (1) help build a greenhouse, (2) purchase apricot kernelling equipment, and
(3) purchase supplies for an apricot storage and exporting company.

Agribusiness Investment. No achievements for increasing agribusiness investment—funds
spent on capital expenditures—had been reported as of the latest reporting period ending
March 31, 2011, despite a cumulative program target of just over $1 million by the end of fiscal
year 2011. The three above-mentioned financial packages to agribusinesses, however, did
include around $18,586 in agribusiness investment recorded by the program after the end of the
latest formal reporting period.

Two bottlenecks are inhibiting the program’s ability to increase access to credit for farmers and
agribusiness and to increase agribusiness investment to the level intended by the program:

      The contractor has not submitted for contracting officer approval enough purchase requests
      to meet farmer and agribusiness demand for equipment.

      The review and approval process for farmer and agribusiness grant applications is too slow.

To facilitate the purchase of equipment like the tractor shown on the following page and other
machinery through the program’s financial package (thus increasing access to credit and

2
    This figure is based on the program’s use of an exchange rate of 1 U.S. dollar to 4.8213 Tajik Somoni.


                                                                                                         10
agribusiness investment), the program’s contractor first must obtain written authorization from
the program’s contracting officer. The contractor obtained authorization to help farmers
purchase 16 tractors through grant financial packages and was in the process of selecting
applicants to buy the remaining eight tractors. (The purchase of four large onion planters
through similar financing also had been authorized.) One contractor representative said he
expected over 100 applications for the remaining eight available tractors.

Despite the demand, the contractor inexplicably had not submitted any purchase requests for
additional tractors beyond the current eight or other equipment. These requests are needed to
help facilitate the millions of dollars of loans and investment the program originally envisioned,
yet no plan exists to keep up with this demand.




        This tractor is one of 16 purchased by farmers through financial packages offered
        by the program. (Photo by Office of Inspector General, July 2011)

Additionally, the time required for the contractor and mission to review, process, and approve
grants (part of the program’s financial package) aimed at encouraging loans and agribusiness
investment is apparently taking longer than the 4 weeks envisioned by program management.
The grant applications must be approved before being submitted to the local financial
institutions for loan approval; a number of these applications also require written authorization
from the program’s contracting officer—an extra step. Some farmers and agribusinesses had
waited months before hearing anything about their applications or before completing the
financial package. Others had not heard anything at all.

At the current pace, the program may not be able to achieve the level of increased access to
credit and agribusiness investment originally intended. The combined achievements for these
two objectives through July 2011 met only 3.3 percent of the target set for the end of September
2011. In addition, farmers and agribusinesses questioned the program’s reliability. They were
losing confidence because of delays in grant awards and, in some cases, unfulfilled program
promises. The lack of trust and confidence could diminish the program’s ability to attract

                                                                                               11
investment and maintain interest in participating in the program.   We therefore make the
following recommendations.

   Recommendation 7. We recommend that USAID/Central Asian Republics expedite the
   program’s approval process for grant applications.

   Recommendation 8. We recommend that USAID/Central Asian Republics implement a
   plan to facilitate purchases of agricultural equipment through more frequent purchase
   requests to the contracting officer and expedited approval.




                                                                                           12
EVALUATION OF MANAGEMENT
COMMENTS
The Office of Inspector General has reviewed the mission’s response to the draft report and
determined that management decisions have been reached on all eight recommendations. The
status of each of the eight recommendations is shown below.

In response to Recommendation 1, the mission stated that new indicators have been
recommended and mission personnel are working with the contractor to improve and refine
these indicators. The mission intends to complete these actions by the end of October 2011 and
amend the PMP accordingly. We conclude that a management decision has been reached on
this recommendation.

In response to Recommendation 2, the mission stated that end-of-program targets, as well as
milestone targets, would be finalized by the end of October 2011, with a data quality
assessment conducted by the end of December 2011. We conclude that a management
decision has been reached on this recommendation.

In response to Recommendation 3, the mission stated that the contractor has implemented
specific measures in response to this recommendation. In addition, the mission is conducting an
internal assessment of the project’s financial and program records and will provide
recommendations based on the results to the contractor by the end of November 2011. We
conclude that a management decision has been reached on this recommendation.

In response to Recommendation 4, the mission stated that a detailed plan to modify the voucher
activity would be prepared by the end of October 2011. We conclude that a management
decision has been reached on this recommendation.

In response to Recommendation 5, the mission reported working with the contractor to better
clarify farmers’ eligibility requirements and require the contractor to submit a communication
plan to ensure enforcement of these requirements. The mission stated this would be completed
by the end of October 2011. We conclude that a management decision has been reached on
this recommendation.

In response to Recommendation 6, the mission stated that it will require the contractor to
include all key dates for implementation of demonstration plots and voucher programs in the
annual work plan, which the contractor is currently revising. The mission expected completion
by the end of October 2011. We conclude that a management decision has been reached on
this recommendation.

In response to Recommendation 7, the mission stated that it has required the contractor to
evaluate the grant approval process and submit to the mission a detailed description with clear
roles and responsibilities of staff, as well as review and approval timelines. The mission stated
this would be completed by the end of October 2011. We conclude that a management decision
has been reached.




                                                                                              13
In response to Recommendation 8, the mission stated that all grant programs are to be
identified in the annual work plan to facilitate planning by the USAID contracting office.
Additionally the mission will work with the contractor to decrease the number of approval
requests to the contracting office through the use of blanket waivers and the grouping of grants
of similar types for approval and submission. We conclude that a management decision has
been reached.




                                                                                             14
                                                                                           Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards.3 Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether USAID/Tajikistan’s Productive Agriculture
Program was achieving its main goals of increasing the productivity of traditional agricultural
crops and expanding agricultural profitability. To implement the program, USAID awarded a
$9.8 million cost-plus-fixed-fee completion contract to ACDI/VOCA, covering the 5-year period
from September 30, 2009, through September 29, 2014. As of June 30, 2011, cumulative
obligations and disbursements under the program totaled $3.2 million and $2.5 million,
respectively.

The audit covered program activities over almost a 2-year period, from the inception of the
program on September 30, 2009, through July 29, 2011, to the extent that data were available.
The latest available formally reported data was for the 18-month period ending March 31, 2011.
Auditors conducted visits to selected program-supported activity sites to observe product
demonstration plots and interview program participants.

In planning and performing the audit, the audit team assessed management controls related to
management review, proper execution of transactions and events, and performance targets and
indicators. Specifically, we reviewed and evaluated the following:

     Program work plans for FYs 2010 and 2011
     Performance Plans and Reports for FYs 2010 and 2011
     Certification required under the Federal Managers’ Financial Integrity Act of 19824
     Portfolio review sheets
     Implementing partner contract and modifications
     Reported results
     Financial reports

Audit fieldwork was performed at the USAID/Central Asian Republics and USAID/Tajikistan
missions (in Kazakhstan and Tajikistan, respectively), as well as at the contractor’s offices in
Dushanbe and Khujand, Tajikistan, from July 7 to 29, 2011. In that period, the audit team
conducted field trips through 17 districts to observe program activities and interview program
participants as well as contractor staff. During these site visits, the auditors obtained input from
37 farmers, 17 agribusinesses (such as input dealers, processors, and exporters), and 5 other
entities including local NGOs and financial institutions interacting with the program.


3
    Government Auditing Standards, July 2007 Revision (GAO-07-731G).
4
    Public Law 97–255, as codified in 31 U.S.C. 3512.


                                                                                                  15
                                                                                          Appendix I


Methodology
To determine whether the program was achieving its main goals, the audit team initially
interviewed key staff in USAID/Central Asian Republics, USAID/Tajikistan, and at the
contractor’s offices to gain an understanding of the program, the key players and their roles and
responsibilities, and the reporting procedures and controls for monitoring the program.
Additional work to answer the audit objective entailed conducting field trips to selected districts
to observe program activities and interview a sample of targeted program beneficiaries.
Auditors reviewed and analyzed documents to validate data reported under selected
performance indicators.

To view a wide range of program activities, the audit visited selected activity sites in all 17 of the
districts where the program operates. These activities included the observation of an open field
day event at product demonstration plots and interviews with farmers and agribusinesses. The
audit also made an effort to validate reported results for selected performance indicators
through testing and analytical procedures.          Because this testing was based on a
judgmental―not a statistical―sample of indicators and districts, the results and overall
conclusions related to this analysis were limited to the items tested and cannot be projected to
the entire audit universe.

To assess the test results, the audit team established a materiality threshold of 85 percent,
based in part on the challenging environment in which the program operated. For example, if at
least 85 percent of tested results data reported under a specific performance indicator for a
selected province were adequately supported, the auditors concluded that the reported results
were reasonably accurate.




                                                                                                   16
                                                                                                   Appendix II




MANAGEMENT COMMENTS



MEMORANDUM

DATE:          October 19, 2011

TO:            Bruce N. Boyer, Regional Inspector General/Manila

FROM:          Erin E. McKee, USAID/CAR Regional Mission Director /s/

SUBJECT:       Audit of USAID/Tajikistan’s Productive Agriculture Program
               (Audit Report No. 5-119-11-00X-P)


Please find attached our comments in response to the subject draft report. USAID/CAR concurs
with all eight recommendations to strengthen the Productive Agriculture Program and has set
forth corrective action plans and related target dates for completion.

The only other comment concerns the language used on pg. 7 of the draft report. The section
heading states, “Communication, Eligibility, and Timing Snags Make the Voucher Activity
Ineffective.” USAID/CAR respectively request that this language be changed to, “… Make the
Voucher Activity less effective.”

Please advise should you have any questions or need for more information. We will keep you
informed regarding progress and provide supporting documentation showing corrective actions
taken.




KAZAKHSTAN              TAJIKISTAN                        TURKMENISTAN              UZBEKISTAN__

      41 Kazibek Bi Street, Almaty 050010, Kazakhstan; tel: (727) 250-7612; fax: (727) 250-7636; website:
                                         http://centralasia.usaid.gov

                                                                                                            17
                                                                                                    Appendix II




                                                                                                 Attachment A

The report recommends that USAID/Central Asian Republics:

1. Establish additional output indicators to adequately report on the achievement of the
voucher activity such as the number of participants receiving vouchers and the number of
vouchers redeemed (page 6).

       Agree. USAID has recommended new indicators to the contractor for vouchers as well as
       other outputs. We are currently working with the contractor to improve and refine the list.
       By the end of October, the list will be finalized and the PMP amended accordingly.

2. Adopt end-of-program targets, as well as milestone targets, for all output indicators as
required by Automated Directives System (ADS) 203.3.3.1.b.

       Agree. This will be finalized by the end of October as well. Data Quality assessment will
       be conducted by the end of FY12/Q1

3. Adopt procedures to ensure reported achievements are adequately supported with reliable
data and reflect the intended measurement of the indicator.

       Agree.
       USAID is conducting an internal assessment of the project’s financial and program
       records and based on the results will provide specific recommendations by the end of
       November 2011. In the meantime, the contractor has implemented measures in response
       to this recommendation to address this issue. These measures are as follows:
           1. Collection of more detailed documentation of training events which will be
                systematically filed in the project office.
           2. Financial disbursements to implementing partners to pay for training monitoring
                activities require approval of monitoring and evaluation department.
           3. Database assistant will conduct regular reviews of data entered by training
                partners.
           4. More frequent staff meetings will be used as an opportunity to emphasize the
                importance of monitoring data collection.
           5. The contractor has reduced the number of and focused more training on partners
                responsible for collecting monitoring data.



KAZAKHSTAN               TAJIKISTAN                        TURKMENISTAN              UZBEKISTAN__

       41 Kazibek Bi Street, Almaty 050010, Kazakhstan; tel: (727) 250-7612; fax: (727) 250-7636; website:
                                          http://centralasia.usaid.gov

                                                                                                             18
                                                                                                    Appendix II




4. Modify the voucher activity as necessary to communicate the purpose of the voucher activity
more effectively.

    Agree. USAID has discussed this recommendation with the contractor in detail and agree
   that the project:
       1) Will strengthen the capacity of sub-contracted NGOs that implement the voucher
           program by increasing training sessions provided by project staff and will task project
           staff to gather feedback more regularly from NGOs.
       2) Ensure that voucher participants are better informed by requiring that they participate
           in field days which are conducted on crop demonstration plots.
       3) Improve demonstration of best practices and review and improve the training
           curriculum and training process to better communicate the goals of the voucher
           programs.
       4) Improve the selection of farmers

       A detailed plan to implement the above-mentioned measures will be prepared by project
       by the end of October.

5. Clarify the farmers’ eligibility requirements with its contractor. The contractor should then
communicate in writing the requirements to personnel implementing and monitoring the
voucher activity so that they select only eligible individuals to participate.

       Agree. Working with the contractor, by the end of October USAID will define priority
       value chains, priority regions and minimum requirements for voucher participants as well
       as selection processes. It is expected that this will result in a more nuanced set of criteria,
       taking into account differences in the target crops and farms which produce them. USAID
       will require the contractor to submit a communication plan to ensure enforcement of
       these requirements.

6. Identify the key dates by which farmers need voucher inputs for various crops and
implement a schedule for delivering inputs well in advance of those dates, giving farmers
sufficient time to save or identify financing for purchasing these inputs

       Agree. USAID has required that all the key dates for implementation of demonstration
       plots, trainings, voucher programs (including identification of farmers and input dealers,
       schedule of input delivery, voucher distribution, voucher redemption and monitoring
       dates) be identified in the annual work plan. Any changes in these dates are to be
       reflected in the quarterly reports. The contractor is currently revising the work plan for
       year 3 to address these requirements. The expected completion date is end of October.
KAZAKHSTAN               TAJIKISTAN                        TURKMENISTAN              UZBEKISTAN__

       41 Kazibek Bi Street, Almaty 050010, Kazakhstan; tel: (727) 250-7612; fax: (727) 250-7636; website:
                                          http://centralasia.usaid.gov

                                                                                                             19
                                                                                                   Appendix II




7. Expedite the program’s approval process for grant applications

       Agree. USAID has required that the contractor evaluate the current grant review/approval
       process and submit a detailed description of the grants approval process with clear roles
       and responsibilities of staff, as well as identification of maximum time for the review and
       approval. The deadline for submitting this description to USAID is the end of October. In
       addition, all the major grants programs envisioned by the contractor are to be identified in
       the annual work plan.

8. Implement a plan to facilitate purchases of agricultural equipment through more frequent
purchase requests to the contracting officer and expedited approval.

       Agree. As indicated above, all grants programs are to be identified in the annual work
       plan which will facilitate planning by the USAID contracting office. In addition, USAID
       will work with the contractor to decrease the number of approval requests to the
       contracting office. This will be done by maximizing the use of blanket waivers and
       grouping grants of similar types for approval submission.




KAZAKHSTAN              TAJIKISTAN                        TURKMENISTAN              UZBEKISTAN__

      41 Kazibek Bi Street, Almaty 050010, Kazakhstan; tel: (727) 250-7612; fax: (727) 250-7636; website:
                                         http://centralasia.usaid.gov

                                                                                                            20
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
